No. 20-827
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
ZAYN AL-ABIDIN MUHAMMAD HUSAYN
AKA ABU ZUBAYDAH, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the REPLY
BRIEF FOR THE PETITIONER, via email and first-class mail, postage prepaid, this 4th day of March,
2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,898
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare under
penalty of perjury that the foregoing is true and correct. Executed on March 4, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 4, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case Management Specialist,
Office of the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin’s phone number is (202) 514-2217 or 2218.

20-0827
USA
HUSAYN, ZAYN AL-ABIDIN MUHAMMAD, AKA
ABU ZUBAYDAH, ET AL.

DAVID F. KLEIN
PILLSBURY WINTHROP SHAW PITTMAN LLP
1200 17TH STREET, NW
WASHINGTON, DC 20032
DAVID.KLEIN@PILLSBURYLAW.COM
JERRY J. MOBERG
MOBERG RATHBONE KEARNS, P.S.
124 3RD AVE, S.W.
EPHRATA, WA 98823-2619
JMOBERG@MRKLAWGROUP.COM
CHRISTOPHER TOMPKINS
BETTS, PATTERSON & MINES, P.S.
701 PIKE STREET
SUITE 1400
SEATTLE, WA 98101
CTOMPKINS@BPMLAW.COM

